TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Annual Assessment of the Internal Revenue
                  Service Information Technology Program



                                      September 30, 2013

                              Reference Number: 2013-20-126




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


ANNUAL ASSESSMENT OF THE                             WHAT TIGTA FOUND
INTERNAL REVENUE SERVICE
                                                     Since last year’s assessment report, the IRS
INFORMATION TECHNOLOGY                               has made progress on improving information
PROGRAM                                              security. As a result, the Government
                                                     Accountability Office made a determination to
                                                     downgrade information security from a material
Highlights                                           weakness to a significant deficiency. Even still,
                                                     TIGTA’s reviews identified weaknesses in
Final Report issued on                               system access controls, audit trails, and
September30, 2013                                    remediation of security weaknesses.
Highlights of Reference Number: 2013-20-126          In addition, the IRS took important steps to
to the Internal Revenue Service Chief                correct system performance issues of the
Technology Officer.                                  Modernized e-File system to deliver a successful
                                                     filing season. However, TIGTA continues to
IMPACT ON TAXPAYERS                                  believe that the IRS’s Modernization Program
The IRS relies extensively on its computer           remains a major risk. TIGTA identified several
systems to carry out the responsibilities of         systems development issues that should be
administering our Nation’s tax laws. As such, it     addressed to further strengthen and support the
must ensure that its computer systems are            Modernization Program. For example, our
effectively secured to protect sensitive financial   review of the Customer Account Data Engine 2
and taxpayer data. In addition, successful           database determined that existing data quality
modernization of IRS systems and the                 issues prevented the downstream interfaces
development and implementation of new                from being implemented. Further, the
information technology applications are              development and implementation of new
necessary to meet evolving business needs and        systems for the Affordable Care Act present
to enhance services provided to the American         major information technology management
taxpayer. The IRS also needs to ensure that it       challenges. As a result, TIGTA plans to
leverages viable technological advances as it        continue its strategic oversight of this area.
modernizes its major business systems and            Achieving program efficiencies and cost savings
improves its overall operational environment.        is an important area for the IRS. In
This includes ensuring that information              October 2012, the IRS achieved Information
technology solutions are cost-effective and                                            ®
                                                     Technology Infrastructure Library Maturity
support mandatory Federal requirements and           Level 3 to help achieve greater efficiency
electronic tax administration goals.                 delivering information technology services.
WHY TIGTA DID THE AUDIT                              While the IRS has made progress on improving
                                                     program effectiveness and reducing costs,
This audit is included in our Fiscal Year 2013       TIGTA’s recent audit work involving data center
Annual Audit Plan under the major management         consolidation, the Aircard and BlackBerry®
challenge of Modernization; however, it also         smartphone program, and hardware and
addresses other challenge areas (e.g., Security      software management identified several
for Taxpayer Data and Employees and                  opportunities for the IRS to achieve additional
Implementing the Affordable Care Act and Other       cost savings.
Tax Law Changes). TIGTA annually assesses
and reports on an evaluation of the adequacy         WHAT TIGTA RECOMMENDED
and security of IRS information technology, as       Because this was an assessment report of the
required by the IRS Restructuring and Reform         IRS’s Information Technology Program through
Act of 1998.                                         Fiscal Year 2013, TIGTA did not make any
                                                     recommendations. However, TIGTA provided
                                                     recommendations to the IRS in the audit reports
                                                     referenced throughout this report.
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 30, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                         Michael E. McKenney
                               Acting Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Internal Revenue
                               Service Information Technology Program (Audit # 201320019)

 The overall objective of this review was to assess the progress of the Internal Revenue Services’s
 (IRS) Information Technology Program, including modernization, security, and operations. This
 review is required by the IRS Restructuring and Reform Act of 1998.1 This audit is included in
 the Treasury Inspector General for Tax Administration’s Fiscal Year 2013 Annual Audit Plan
 under the major management challenge of Modernization; however, it also addresses other
 challenge areas (e.g., Security for Taxpayer Data and Employees and Implementing the
 Affordable Care Act and Other Tax Law Changes).
 Copies of this report are also being sent to IRS managers affected by the report contents. If you
 have any questions, please contact me or Alan R. Duncan, Assistant Inspector General for Audit
 (Security and Information Technology Services).




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C.,31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                Annual Assessment of the Internal Revenue Service
                                         Information Technology Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Assessment of Information Security in Information Technology
          Programs, Operations, and Systems Development ....................................... Page 6
          Systems Development Projects to Support Modernization, Tax
          Legislation Changes, and Tax Compliance Initiatives ................................. Page 20
          Implementation of New Systems for the Patient Protection and
          Affordable Care Act Provisions .................................................................... Page 25
          Updates for the Integrated Financial System to Support Internal
          Revenue Service Operations ......................................................................... Page 27
          Information Technology Service Management Disciplines to
          Achieve Program Efficiencies and Savings Were Implemented;
          However, Additional Cost Savings Can Be Realized ................................... Page 28
          The Internal Revenue Service Needs to Strengthen Its Hardware
          and Software Management Processes ........................................................... Page 30
          There Has Been a Lack of Progress in Providing Taxpayer
          Access to Account Information via the Internet ........................................... Page 31
          Potential Savings for New Bring Your Own Device Pilot ........................... Page 33

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 34
          Appendix II – Major Contributors to This Report ........................................ Page 36
          Appendix III – Report Distribution List ....................................................... Page 37
          Appendix IV – List of Treasury Inspector General for Tax
          Administration Reports Reviewed ................................................................ Page 38
          Appendix V – Outcome Measures Reported in Fiscal Year 2013 ................ Page 40
          Appendix VI – Glossary of Terms ............................................................... Page 41
           Annual Assessment of the Internal Revenue Service
                    Information Technology Program




                     Abbreviations

ACA            Affordable Care Act
ACIO           Associate Chief Information Officer
BYOD           Bring Your Own Device
CADE           Customer Account Data Engine
FATCA          Foreign Account Tax Compliance Act
FISMA          Federal Information Security Management Act
FRS            Foreign Financial Institution Registration System
GAO            Government Accountability Office
IFS            Integrated Financial System
IFSV           Income and Family Size Verification
IRS            Internal Revenue Service
IT             Information Technology
ITIL           Information Technology Infrastructure Library
KISAM-AM       Knowledge, Incident/Problem, Service Asset Management –
               Asset Manager
NIST           National Institute of Standards and Technology
OMB            Office of Management and Budget
RRA 98         Restructuring and Reform Act of 1998
TIGTA          Treasury Inspector General for Tax Administration
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1 requires
the Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the
adequacy and security of the IRS Information Technology Program. This report provides our
assessment of the IRS’s Information Technology Program and operations for Fiscal Year 2013.
The IRS collects taxes, processes tax returns, and enforces Federal tax laws. In Fiscal Years
2011 and 2012, the IRS collected about $2.4 trillion and $2.5 trillion, respectively, in Federal tax
payments, processed hundreds of millions of tax and information returns, and paid about
$416 billion and about $373 billion, respectively, in refunds to taxpayers. Further, the size
and complexity of the IRS add unique operational challenges. The IRS employs more than
95,000 people in its Washington, D.C., headquarters and more than 650 offices in all 50 states
and U.S. territories and in some U.S. embassies and consulates. The IRS relies extensively on
computerized systems to support its financial and mission-related operations.
According to March 2013 budget information provided by the Associate Chief Information
Officer (ACIO), Strategy and Planning, the IRS Information Technology (IT) organization’s
Fiscal Year 2013 budget was approximately $2.3 billion, which is up slightly from last year’s
budget of $2.2 billion. Figure 1 provides a breakdown of the Fiscal Year 2013 budget by ACIO
organization. Figure 2 provides a breakdown of the Fiscal Year 2013 budget by funding source.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 1
                  Annual Assessment of the Internal Revenue Service
                           Information Technology Program



            Figure 1: IRS Information Technology Organization
              Fiscal Year 2013 Budget (by ACIO organization)




Source: Our analysis of the IRS IT organization budget data as of March 31, 2013, provided by the
ACIO, Strategy and Planning, Financial Management Services.

            Figure 2: IRS Information Technology Organization
               Fiscal Year 2013 Budget (by Funding Source)




Source: Our analysis of the IRS IT organization budget data as of March 31, 2013, provided by the
ACIO, Strategy and Planning, Financial Management Services.

                                                                                                Page 2
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



The ACIO offices were restructured during Calendar Year 2013. Applications Development is
now Enterprise Applications Development and will focus its efforts on systems development and
maintenance, requirements analysis and development, and the delivery of multiple projects. The
Enterprise Program Management Office will perform project management responsibilities for
several systems development projects including the Customer Account Data Engine (CADE) 2,
Return Review Program, Electronic Fraud Detection System, and Modernized e-File. In addition
to the organizational restructuring, the IRS IT organization experienced turnover in some of its
executive positions. For example, Enterprise Applications Development, Enterprise Services,
and the Affordable Care Act (ACA)2 Program Management Office have new executive
leadership.
As of August 2013, the IRS’s IT organization employed 7,303 individuals, of which 7,145 work
in eight different ACIO offices:
       Enterprise Applications Development is responsible for building, testing, delivering, and
        maintaining integrated information applications systems, or software solutions, to support
        modernized systems and the production environment.
       Enterprise Program Management Office is responsible for solution architecture and
        program-level life cycle processes for solution development.
       Cybersecurity is responsible for ensuring IRS compliance with Federal statutory,
        legislative, and regulatory requirements governing confidentiality, integrity, and
        availability of IRS electronic systems, services, and data.
       Enterprise Operations provides efficient, cost-effective, and highly reliable computing
        (server and mainframe) services for all IRS business entities and taxpayers.
       Enterprise Services enables business transformation through integrated solutions,
        services, and standards.
       Strategy and Planning is responsible for developing a comprehensive, integrated financial
        management program and strategic plan that support the programs and goals of the
        IT organization and for developing and implementing a capital planning and policy
        investment methodology and business case development.
       User and Network Services supplies and maintains all deskside (including telephone)
        technology, provides workstation software standardization and security management,
        inventories data processing equipment, conducts annual certifications of assets, provides



2
  Patient Protection and Affordable Care Act (Affordable Care Act), Pub. L. No. 111-148, 124 Stat. 119 (2010)
(codified as amended in scattered section of the U.S. Code), as amended by the Health Care and Education
Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                          Page 3
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



       the Information Technology Service Desk as the single point of contact for reporting an
       information technology issue, and equips the Volunteer Income Tax Assistance program.
      ACA Program Management Office is responsible for managing the strategic planning,
       development, and implementation of new information systems in support of business
       requirements with regard to the ACA (our Nation’s healthcare reform initiative).
The remaining 158 employees work in the Management Services business unit or support the
Office of the Chief Technology Officer. The Management Services business unit partners with
IRS IT leadership to define and implement human capital policies and guidance to ensure that
employees are supported in the fashion necessary to deliver outstanding service. The Office of
the Chief Technology Officer includes the Chief Technology Officer, two Deputy Chief
Information Officers, and their staff. A Deputy Chief Information Officer serves as principal
advisor to the Chief Technology Officer and provides executive direction and focus in helping
the organization increase its effectiveness in delivering information technology services and
solutions that align to the IRS’s business priorities. Figure 3 presents the number of information
technology employees in each business unit.
       Figure 3: Number of Information Technology Organization Employees
          by Business Unit (in descending order by number of employees)

                                                                                 Number of
               Information Technology Business Unit                              Employees

    Enterprise Applications Development                                             1,978
    Enterprise Operations                                                           1,836
    User and Network Services                                                       1,660
    Enterprise Services                                                              645
    Cybersecurity                                                                    370
    Strategy and Planning                                                            294
    Affordable Care Act – Program Management Office                                  292
    Management Services                                                              144
    Enterprise Program Management Office                                              70
    Office of the Chief Technology Officer                                            14

                                   Total                                           7,303

  Source: Treasury Integrated Management Information System as of August 2013.




                                                                                             Page 4
                             Annual Assessment of the Internal Revenue Service
                                      Information Technology Program



The compilation of information for this report was conducted at TIGTA offices in Austin, Texas;
Chicago, Illinois; and Memphis, Tennessee, during the period May through September 2013.
The information presented is derived from TIGTA audit reports issued between October 1, 2012,
and September 27, 2013. We also reviewed relevant Government Accountability Office (GAO)3
reports, congressional testimony, and IRS-issued documents relating to IRS information
technology plans and issues. These previous audits and our analyses were conducted in
accordance with generally accepted government auditing standards. Those standards require that
we plan and preform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II. A listing of
the audit reports used in this assessment is presented in Appendix IV.




3
    See Appendix VI for a glossary of terms.
                                                                                          Page 5
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program




                                    Results of Review

Assessment of Information Security in Information Technology
Programs, Operations, and Systems Development
For Fiscal Year 2013, TIGTA designated Security for Taxpayer Data and Employees as the
IRS’s number one management and performance challenge. The IRS faces the daunting task of
securing its computer systems against the growing threat of cyberattacks. Effective information
systems security becomes essential to ensure that data are protected against inadvertent or
deliberate misuse, improper disclosure, or destruction and that computer operations supporting
tax administration are secured against disruption or compromise.
Protecting the confidentiality of this sensitive information is paramount. Otherwise, taxpayers
could be exposed to loss of privacy and to financial loss and damages resulting from identity
theft or other financial crimes. According to an Office of Management and Budget (OMB)
report4 to Congress, threats to Federal information—whether from insider threat (e.g., mistakes,
as well as fraudulent or malevolent acts by employees or contractors working within an
organization), criminal elements, or nation states—continue to grow in number and
sophistication, creating risks to the reliable functioning of our Government.
The number of cyber incidents affecting Federal Government agencies increased approximately
five percent in Fiscal Year 2012, when agencies reported 48,842 cyber incidents to the U.S.
Computer Emergency Readiness Team as presented in Figure 4. The Department of the
Treasury reported 3,829 cyber incidents to the U.S. Computer Emergency Readiness Team in
Fiscal Year 2012, as shown in Figure 5.




4
  OMB, Fiscal Year 2012 Report to Congress on the Implementation of the Federal Information Security
Management Act of 2002 (March 2013). Pub. L. No. 107-347, Title III, 116 Stat. 2899, 2946-2961 (2002)
(codified as amended in 44 U.S.C. §§ 3541–3549).
                                                                                                        Page 6
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



             Figure 4: Cyber Incidents Reported to the U.S. Computer
        Emergency Readiness Team by Federal Agencies in Fiscal Year 2012

                                                                       Number of       Percentage of
                        Incident Category                              Incidents       Total Incidents
Non-Cyber (Personally Identifiable Information spillage or
                                                                            13,685                 28.0%
mishandling for hardcopy or printed material)
Policy Violations (mishandling of data in storage or transit)                 9,194                18.8%
Malicious Code (malware)                                                      8,847                18.1%
Equipment (lost or stolen equipment)                                          8,057                16.5%
Suspicious Network Activity                                                   2,918                 6.0%
Social Engineering (fraudulent websites or attempts to entice
                                                                              2,459                 5.0%
users to provide sensitive information)
Improper Usage (rule of behavior violations)                                   690                  1.4%
Unauthorized Access (unprivileged users gain control of system
                                                                               347                  0.7%
or resource)
Denial of Service (successful Denial of Service attacks)                         27                0.05%
Other (low frequency incidents, such as unconfirmed third-party
                                                                              2,618                 5.4%
notifications, failed attacks, or incident with unknown causes)
Total                                                                       48,842               100.0%
Source: The OMB’s Fiscal Year 2012 Report to Congress on the Implementation of the Federal Information
Security Management Act of 2002, dated March 2013. Percentages do not add to 100 percent due to rounding.

      Figure 5: Cyber Incidents Reported to the U.S. Computer Emergency
     Readiness Team by the Department of the Treasury in Fiscal Year 2012




 Source: The OMB’s Fiscal Year 2012 Report to Congress on the Implementation of the Federal Information
 Security Management Act of 2002, dated March 2013.

                                                                                                    Page 7
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



The Office of Cybersecurity within the IRS IT organization is responsible for protecting
taxpayer information and the IRS’s electronic systems, services, and data from internal and
external cybersecurity threats by implementing world-class security practices in planning,
implementation, risk management, and operations. In September 2012, the IRS issued an
updated version of the Information Technology Program Plan.5 The plan addresses current
information technology security issues and communicates to the IRS community the security
initiatives to resolve the Information Security Material Weaknesses,6 comply with Federal
security guidelines, and reduce security risk.
The plan uses the 13 information security elements contained in National Institute of Standards
and Technology (NIST) Special Publication 800-1007 as the framework for the IRS Information
Security Program. Under each program element, there is a brief description of its scope, the
current environment, and an encapsulation of ongoing security initiatives. The initiatives
represent the actions that serve as a roadmap and a basis for benchmarking performance. The
document captures what the IRS is doing to continuously improve its security posture.
Since Security for Taxpayer Data and Employees is the highest management and performance
challenge, we performed audits to assess the IRS’s efforts to protect its information systems and
taxpayer data. Some of these audits focused solely on what the IRS was doing to mitigate its
information security risks. We also had audits whose objectives were primarily focused on
management of systems development or information technology operations/projects but included
security subobjectives. Therefore, some of the audits discussed below appear in two sections of
this report.

The IRS determined that information security should no longer be designated as
a material weakness but as a significant deficiency
In Calendar Year 1997, the IRS designated information security as a material weakness. The
information security material weakness compromises the accuracy and availability of the IRS
financial information and places sensitive information regarding IRS operations and taxpayers at
risk. In our 2012 annual assessment report,8 the IRS stated that it closed or completed corrective
actions for eight of the nine information security material weakness components and planned to
close the remaining component by January 2014. During Fiscal Year 2013, the IRS revised its
plans to close the remaining component by September 2014.
In November 2012, the GAO reported9 that during Fiscal Year 2012, the IRS continued to make
important progress in addressing numerous deficiencies in its information security controls over

5
  The IRS issued the first plan in September 2009.
6
  Formerly called computer security material weaknesses.
7
  NIST, NIST Special Publication 800-100, Information Security Handbook: A Guide for Managers (Oct. 2006).
8
  TIGTA, Ref. No. 2012-20-120, Annual Assessment of the Internal Revenue Service Information Technology
Program p. 19 (Sept. 2012).
9
  GAO, GAO-13-120, IRS’s Fiscal Years 2012 and 2011 Financial Statements Highlights page (Nov. 9, 2012).
                                                                                                     Page 8
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



its financial reporting systems. As a result, GAO considers information security, previously
reported as a long-standing material weakness, to be a significant deficiency that continues to
warrant the attention of those charged with governance of the IRS.
In addition to the GAO’s determination to downgrade information security to a significant
deficiency, the IRS provided a briefing and documents to TIGTA in August 2013 that detailed its
other efforts and accomplishments to support the downgrade determination, which included:
        The IT organization’s work and its progress on the Information Security Material
         Weakness remediation plan; GAO’s top nine concerns, which include specific financial
         systems, security controls, and reliability on the IRS’s monitoring of internal controls;
         review of external systems that provide data in support to the IRS’s financial statements;
         and the annual Federal Information Security Management Act (FISMA) 10 assessment on
         security metrics.
        The Chief Financial Officer’s work on interim OMB Circular A-12311 testing to evaluate
         internal controls effectiveness over financial reporting, annual assurance statements, and
         IRS materiality determinations to better understand financial process workflows,
         systemic and operational risks, mitigation steps, monitoring, and controls.
Unlike previous years, the IRS did not request that TIGTA initiate a review to validate its efforts
to support the downgrade determination. As a result, we are not in a position to concur or
disagree with the determination. However, the information provided appears to be very
comprehensive and detailed to support the downgrade.
In March 2013, the GAO reported12 that despite the progress made by the IRS, the GAO still
found access control deficiencies that reduced security over systems:
        Controls for identifying and authenticating users were inconsistently implemented.
        Inconsistent use of data encryption limited protection of sensitive information.
        Visitor physical access cards to restricted areas at one computing center provided
         unauthorized access to other restricted areas within the center, and regular reviews of
         individuals with an ongoing need to access restricted areas at one of the three computing
         centers were not being conducted monthly to ensure that such access was still
         appropriate.




10
   Pub. L. No. 107-347, Title III, 116 Stat. 2899, 2946-2961 (2002) (codified as amended in
44 U.S.C. §§ 3541-3549)
11
   OMB, OMB Circular No. A-123 (Revised), Management’s Responsibility for Internal Control (Dec. 2004)
12
   GAO, GAO-13-350, IRS Has Improved Controls but Needs to Resolve Weaknesses pp. 11-13, 15, and 18
(March 15, 2013).
                                                                                                     Page 9
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



The GAO report continued by stating that a key reason for the information security weaknesses
in the IRS’s financial and tax-processing systems was that, although the IRS has developed and
documented a comprehensive agencywide information security program, it had not effectively
implemented certain elements of its information security program. For example (not all
inclusive):
        Inconsistent system configurations resulted in preventable vulnerabilities. Eight of
         19 servers reviewed lacked a security setting to enforce standard configuration updates,
         resulting in weaker controls for these servers.
        The agency’s automated change management process could be circumvented because
         individuals had privileges that allowed them to make changes to mainframe applications.
        The IRS did not always apply patches to its systems in a timely manner. For example, a
         database supporting tax account processing had not been patched for several months
         despite the issuance of critical patches, and another database used for operations support
         was missing key patches. IRS officials stated that these situations resulted from
         restrictions on making changes to systems during the tax filing season. Other servers
         were also not patched due to system performance problems.
        The IRS’s audit and monitoring policies and procedures did not comprehensively address
         users accessing files used by one processing environment from a different environment.
        The IRS’s security standards for systems that support tax processing and financial
         management contained information that was several years out of date, which had resulted
         in less secure system configurations.
The GAO also reported that the IRS had a process in place for evaluating and tracking remedial
actions, but it did not always effectively validate that corrective actions had been taken or
whether the actions addressed the weakness. The Internal Revenue Manual requires that the IRS
track the status of resolution of all weaknesses and verify that each weakness has been corrected
before closing it. During the GAO audit period, March 2012 through March 2013, the IRS
informed the GAO that it had addressed 58 of the 118 previous GAO information system
security recommendations that remained unresolved at the end of the prior audit. However, the
GAO determined that 13 (about 22 percent) of the 58 had actually not yet been fully resolved.13
The GAO previously made a recommendation in March 2007 to the IRS for it to revise its
verification process to ensure that actions are fully implemented.14
During a similar review to determine whether closed corrective actions to security weaknesses
and findings reported by TIGTA have been fully implemented, validated, and documented as


13
  GAO, GAO-13-350, IRS Has Improved Controls but Needs to Resolve Weaknesses p. 22 (March 15, 2013).
14
  GAO, GAO-07-364, Information Security: Further Efforts Needed to Address Significant Weaknesses at the
Internal Revenue Service p. 23 (March 30, 2007).
                                                                                                    Page 10
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



implemented,15 we found that eight (42 percent) of the 19 planned corrective actions had not
been fully implemented and should not have been closed. These planned corrective actions
involved systems containing taxpayer data. For the eight planned corrective actions, we found
the following internal control deficiencies.
          For five planned corrective actions, the supporting documentation did not fully support
           the closed corrective action. In the remaining three planned corrective actions, we were
           not provided any documentation to support the closure of the corrective action.
          For four planned corrective actions, the update and closure form did not include the
           appropriate executive approval.
          For all eight planned corrective actions, the office responsible for monitoring internal
           control weaknesses did not audit the corrective actions to ensure implementation and
           proper closure.
Our audit report provided six recommendations to address these issues.
The Federal Government has a duty to secure Federal information and information systems and
protect against threats (e.g., unauthorized access to systems or data) posed by security
weaknesses. The FISMA requires agencies to provide information security protections
commensurate with risks and their potential harms to Federal information. We completed our
mandatory review of the FISMA16 and found that the IRS generally complied with nine of
11 requirements on its information security programs and practices. Based on our and the
GAO’s recent reports, the IRS should improve its efforts to promptly resolve findings and
document the actions taken to close the corrective actions.

Weaknesses in security of operations programs, Internet access, and new
technologies
Information security services and products are essential elements of an organization’s
information security program. The selection of services and products is an integral part of the
design, development, and maintenance of an information technology security infrastructure that
ensures confidentiality, integrity, and availability of mission-critical information. Information
security services and product acquisition encompasses the selection of services and products that
are used as operational or technical security controls for the IRS’s information technology
systems. The following are the audits that reported information security issues.
Trusted Internet Connections: This initiative is intended to improve cybersecurity and the
security of Federal information systems. The primary goals are (1) to consolidate and secure



15
     See Appendix IV, Ref. No. 2013-20-117.
16
     See Appendix IV, Ref. No. 2013-20-128.
                                                                                               Page 11
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



Federal agency external connections using a common set of security controls and (2) to improve
the Federal Government’s incident response capability.
During our review of the IRS’s implementation of this initiative,17 we found that in
February 2013 the Department of Homeland Security conducted a Cybersecurity Capability
Validation assessment of two of the three IRS Trusted Internet Connections and reported that
each met 68 (92 percent) of the 74 capabilities required. Although the IRS has made good
progress implementing the requirements for this initiative, our review revealed areas where
improvements could strengthen security.
        The IRS was not capturing audit logs of administrator activity on servers, firewalls, or
         routers. Audit logs containing information on activities by administrators on Trusted
         Internet Connection devices provide a means to establish individual accountability.
         Without an effective system for the capture and review of administrator activity,
         accountability for actions taken on equipment cannot be established and unauthorized
         activity may go undetected.
        A Data Loss Prevention system designed to detect potential data breach transmissions
         and prevent them by monitoring, detecting, and blocking sensitive data while in use
         (endpoint actions), in motion (network traffic), and at rest (data storage) was not in
         place.
        The IRS does not have a sufficient number of operational employees with appropriate
         security clearances for handling classified information.
        The IRS does not have a Sensitive Compartmented Information Facility18 at any of its
         three Trusted Internet Connection locations as required. A Sensitive Compartmented
         Information Facility is a secured area within a building that is used to process sensitive
         compartmented information.
        Although the IRS has generally configured firewalls and routers securely, we found
         instances where firewalls or routers were not configured in compliance with required
         baseline configuration settings.
        The IRS has eight servers running outdated versions of the operating system. Outdated
         operating systems increase the risk of attacks that exploit known vulnerabilities, resulting
         in unauthorized access or loss of IRS data.
Our audit report provided six recommendations to address these issues.


17
  See Appendix IV, Ref. No. 2013-20-107.
18
  Office of the Director of National Intelligence, Intelligence Community Directive Number 705, Sensitive
Compartmented Information Facilities (May 26, 2010), established the uniform physical and technical requirements
with which facilities must comply in order to be accredited as a Sensitive Compartmented Information Facility.
                                                                                                       Page 12
                        Annual Assessment of the Internal Revenue Service
                                 Information Technology Program



Treasury Enhanced Security Initiatives: This project was implemented to enable the IRS to
comply with the OMB’s mandate18 to continuously monitor security settings on computer
workstations and identify and address security settings that have been altered. We found19 that
the project, which includes the continuous monitoring tool for workstation security, will address
several computer security weaknesses on employee workstations. Our audit report did not
include any security recommendations.
Virtualized Environment: Server virtualization is a technology that allows several “virtual”
servers to run on one physical host server (hereafter referred to as “host”), as illustrated in
Figure 6. The technology helps organizations utilize their existing hardware infrastructure more
effectively.
                       Figure 6: Illustration of Server Virtualization




     Source: TIGTA, Ref. No. 2013-20-106, Automated Monitoring Is Needed for the Virtual
     Infrastructure to Ensure Secure Configurations p. 1 (Sept. 2013).

Our review of the security over the IRS’s virtualized environment20 found that the IRS developed
a comprehensive policy that establishes the minimum security controls to prevent unauthorized
access to IRS information systems hosted in its virtualization environment. The IRS has been



18
   OMB, OMB Memorandum M-07-11, Implementation of Commonly Accepted Security Configurations for
Windows Operating Systems (March 22, 2007).
19
   See Appendix IV, Ref. No. 2013-20-016.
20
   See Appendix IV, Ref. No. 2013-20-106.
                                                                                              Page 13
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



successful in its continual efforts to expand its virtual server environment. As a result, the IRS
improved server efficiency and realized significant cost savings. However, we found that:
          Security configuration settings on virtual hosts were not in accordance with IRS policy
           and the hosts were not timely patched to address known security vulnerabilities.
          Twelve (43 percent) of 28 required security controls on 16 hosts we tested were failed by
           three or more hosts. In addition, 10 (63 percent) of the 16 hosts were missing a total of
           48 security patches.
          Audit logs capturing administrator activity on certain hosts and servers were not being
           collected and reviewed as required. Without the proper capture and review of
           administrator activity, accountability for actions taken on hosts cannot be established and
           unauthorized activity may go undetected. Moreover, the IRS could have a security
           breach in the virtual environment and not be aware of it.
Our audit report provided three recommendations to address these issues.
eAuthentication: RRA 98 requires the IRS to allow taxpayers to access tax account information
online. The objective of the IRS eAuthentication Project is to design and build a common
service to proof and register individuals and to provide and validate credentials for ongoing
system access using the Internet.
During our review,21 we determined that eAuthentication Release 1 has limited audit reporting
functionality. While actions taken by users within the eAuthentication application are identified
by user identification, these actions are not associated to a user’s actual name and therefore
cannot be associated to a specific taxpayer. In addition, the user information captured by the
application may contain Personally Identifiable Information and therefore must be encrypted
when it is stored on the server. The IRS does not have a mechanism to make the encrypted data
readable, but it does have a tool that can log auditable events for each taxpayer transaction that
does track the individual with his or her Social Security Number. These transactions are
available for designated security and audit individuals but not generally available for
management review.
For eAuthentication Release 2, the project team plans to use a suite of products to meet the
reporting requirements. This capability should enable the project team to provide stakeholders
access to more useful reports for both customer usage reporting and process effectiveness
purposes. Without adequate reporting functionality, the IRS is only able to see minimal details
about taxpayers using the eAuthentication application. The expanded reporting functionality
should provide the IRS with application-specific reports, taxpayer account reports, and system
infrastructure reports. Our audit report provided one recommendation to address this issue.


21
     See Appendix IV, Ref. No. 2013-20-127.
                                                                                              Page 14
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



Bring Your Own Device (BYOD) Pilot Project: BYOD is a popular trend in mobile computing
that allows users to access network resources on their personal mobile devices, such as
smartphones. The IRS is currently piloting a limited BYOD effort22 that allows BYOD
participants access to e-mail, calendaring, and some web-based internal IRS applications, but
technical limitations prevent users from interfacing with many IRS internal systems. One
drawback of a BYOD program is that BYOD devices are subject to distinctive threats and often
need additional protection because their nature generally places them at higher exposure to
threats than other devices, e.g., desktop and laptop devices used only within the organization’s
facilities and on the organization’s networks.23
During our review of the IRS’s BYOD Pilot Project,24 we found that the IRS considered and
implemented security measures when it implemented its BYOD pilot; however, increased
attention is still needed to address security concerns related to the participants in the pilot.
        Because the BYOD pilot takes place in the production environment, standard security
         controls should apply. The IRS is unable to fully implement Federal and IRS security
         guidance with respect to BYOD devices. Thus, we believe BYOD devices should only
         be allowed to access e-mail functions and should not be allowed to access other IRS
         network resources.
        The IRS allows devices based on the Android® operating system to participate in the
         BYOD pilot, even though these devices are more subject to malware than the Apple®
         devices tested in earlier phases.
        Access audit trails are not retained or reviewed in compliance with IRS policy. If audit
         trails are not available or are not reviewed, unauthorized accesses may occur and not be
         detected.
        BYOD participants are not receiving periodic refresher training specific to BYOD threats
         and recommended security practices. Without periodic training, the IRS has no assurance
         that users are knowledgeable about elevated loss and theft rates of smartphones, how to
         identify potentially dangerous applications, and other mobile device security issues.
Our audit report provided four recommendations to address these issues.




22
   The IRS currently refers to its BYOD pilot as a “technology demonstrator,” which is meant to distinguish BYOD
as a provisional initiative or prototype, thus differentiating it from formal pilots or large-scale information
technology initiatives for which the IRS uses a well-established investment decision and enterprise life cycle
methodology. The word “pilot” is used in the report in a general sense for ease of understanding.
23
   NIST, NIST Special Publication 800-124 Revision 1, Guidelines for Managing the Security of Mobile Devices in
the Enterprise (June 2013).
24
   See Appendix IV, Ref. No. 2013-20-108.
                                                                                                        Page 15
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



Security and systems development
According to a March 2013 GAO report,25 the IRS applies information technology to help
achieve its missions and provide information and services to the public, but extensive reliance on
computerized information also creates challenges in securing that information from various
threats. Information security is especially important for government agencies, where
maintaining the public’s trust is essential. As a component of overall system security, security
controls should be addressed when developing a new system (e.g., during the design and
requirements development phases) or revising an existing system to mitigate information
security risks.
The GAO describes these controls as general controls (security management, access controls,
configuration management, segregation of duties, and contingency planning), business process
application controls (input, processing, output, master file, interface, and data management
system controls), and user controls (controls performed by people interacting with information
systems). Without proper safeguards, computer systems are more vulnerable to individuals and
groups with malicious intentions who can intrude and use their access to obtain sensitive
information, commit fraud, disrupt operations, or launch attacks against other computer systems
and networks. During this reporting period, information security control weaknesses were
identified in several of our systems development audits.
Integrated Financial System (IFS): The IRS’s core financial system annually accounts for
approximately $12 billion in operational funds. During our review,26 we found that updates for
the system were completed as planned to address compliance for specific information technology
security controls. For example, one update provided data encryption and eliminated security
weaknesses in the Citrix® and Windows® 2000 environments no longer supported by the vendor.
However, improvements are needed to better ensure that remaining system security weaknesses
are addressed. We reported that:
        Users have access to Personally Identifiable Information without a business need. In
         addition, 110 users have access to the 1099 and W-2 data for some IRS employees and
         vendors without reasonable access control checks in place. Such controls would identify
         or prevent a user viewing another IRS employee’s tax information.
        The data encryption tool complies with Federal guidance, but it is not yet certified for
         validation.
        The system does not yet provide for multifactor authentication.
Our audit report provided four recommendations to address these issues.


25
   GAO, GAO-13-350, IRS Has Improved Controls but Needs to Resolve Weaknesses pp. 3, 4, and 6
(March 15, 2013).
26
   See Appendix IV, Ref. No. 2013-20-030.
                                                                                                Page 16
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



Income and Family Size Verification (IFSV) Project: The IFSV Project is one of six core
ACA Program projects being implemented in October 2013. It will support open enrollment by
verifying income and family size for individuals requesting eligibility for the Advanced Premium
Tax Credit for health insurance. During our review,27 we found that, within a new iterative
system development approach, the IRS had developed a security plan intended to protect
taxpayer data and also incorporated FISMA and NIST guidelines. We did not make any
recommendations directly related to information security controls.
Premium Tax Credit Project: Provisions of the ACA include a refundable credit, referred to as
the Premium Tax Credit, for eligible individuals to assist with paying health insurance
premiums. In addition, the IRS’s implementation plan for ACA Exchange provisions includes
providing information that will support eligibility and enrollment functions. Like the IFSV
Project, the Premium Tax Credit Project is managed under the IRS ACA Program. The project
includes all processes related to the development of the Premium Tax Credit Computation
Engine in support of the implementation of Advanced Premium Tax Credit capabilities. During
our observation of security testing,28 Cybersecurity management ensured that tests were
conducted in accordance with the NIST requirements and Internal Revenue Manual guidelines.
However, the configuration baselines and settings for specific controls were not adequately
tested. Because Cybersecurity did not stipulate specific corrective actions for failed tests and
known risks associated with the component misconfiguration, we could not verify that known
risks associated with component misconfigurations have been consistently addressed for the
project.
We reported that change management guidelines were also not consistently followed to withdraw
approved baseline security requirements. Specifically, the change request and impact assessment
prepared to withdraw the security requirements only included one of the seven baseline
requirements removed. If change management guidelines are not properly followed,
management may not be able to determine the potential impact of changed requirements on the
security controls for the Premium Tax Credit Computation Engine, which could negatively affect
functionality or delay deployment of the Premium Tax Credit Project. Our audit report provided
two recommendations to address these issues.
Knowledge, Incident/Problem, Service Asset Management – Asset Manager (KISAM-AM):
The KISAM-AM is the sole authoritative source and official inventory record for all information
technology assets within the IRS [with the exception of information technology software assets
(to include software and software licenses)]. We conducted tests to ensure that sufficient system
controls were in place to protect access to the KISAM system data.29 Our tests determined that
the KISAM-AM application, database, and operating system complied with the IRS’s password


27
   See Appendix IV, Ref. No. 2013-23-034.
28
   See Appendix IV, Ref. No. 2013-23-119.
29
   See Appendix IV, Ref. No. 2013-20-089.
                                                                                         Page 17
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



management requirements. However, our review of the switch user log (audit log) identified
three individuals who accessed the KISAM system database using a system account and without
a need to know. These three individuals are not database administrators and should not have
access to the database system account or the password for the account. This suggests that a
security weakness exists within the KISAM-AM system infrastructure, and we cannot be assured
that the data within the KISAM-AM system is protected from accidental or malicious altering.
Our audit report provided a recommendation to address this issue.
Foreign Financial Institution Registration System (FRS): Development and implementation
of the FRS is underway to support requirements of the Foreign Account Tax Compliance Act
(FATCA).30 If successful, the FRS would help to significantly improve taxpayer compliance
internationally and thus enhance IRS tax administration under the FATCA provisions. Through
the FRS, Foreign Financial Institutions will register and provide offshore account information
reporting to the IRS. Our audit31 found that security controls need improvement to ensure
long-term success for this new international system. Specifically, the IRS needs to ensure that
system test plans are completed so that all security requirements, controls, and test cases are
identified, traced, and tested. Without improvements in risk mitigation controls during
development of this new system, the IRS may not be able to adequately determine whether:
        The Security Controls Assessment Test Plan included adequate security controls prior to
         deployment of the FRS.
        System security controls aligned with NIST guidance, IRS requirements and testing
         manuals, and other applicable standards.
        The Security Controls Assessment Test Plan contained test cases for all the system
         security requirements.
        The test cases were mapped to the security controls.
Our audit report provided one recommendation to address this issue.
CADE 2 database: The CADE 2 program implements a single data-centric solution that
provides daily processing of taxpayer accounts. The first phase is Transition State 1, which
establishes the target CADE 2 data model and database and uses the data to provide individual
taxpayer account information to select systems. The Transition State 1 solution will also
implement required security controls and begin to address identified security weaknesses.
Our review of security controls in the system development activities for the CADE 2 database32
found that the lack of security systems integration prevents transaction-level tracking of
employee access to the CADE 2 database. The CADE 2 – Corporate Files Online/Individual

30
   Pub. L. No. 111-147, Subtitle A, 124 Stat 71, 96-116 (2010)(codified in scattered sections of 26 U.S.C.).
31
   See Appendix IV, Ref. No. 2013-20-118.
32
   See Appendix IV, Ref. No. 2013-20-125.
                                                                                                               Page 18
                              Annual Assessment of the Internal Revenue Service
                                       Information Technology Program



Master Files Online systems interface uses two security systems to provide user authentication
and access control and auditing functionality.
We attempted to trace a transaction from a Corporate Files Online/Individual Master Files
Online system data call to the CADE 2 database and were unable to follow the transaction once
it passed through the Data Access Service system account. Not having transaction-level tracking
of employee access to the CADE 2 database can allow unauthorized access to taxpayer data to go
undetected by audit logs. Our audit report provided one recommendation to address this issue.
Privacy
Within the Federal Government, privacy is defined as an individual’s expectation that his or her
personal information collected for official Government business will be protected from
unauthorized use and access. During our review33 of the IRS’s implementation of the privacy
provisions of the E-Government Act of 2002,34 we found that the IRS implemented the Privacy
Impact Assessment Management System in December 2011 to automate the process of
completing Privacy Impact Assessments in a more efficient and less time-consuming way. We
determined that the Privacy Compliance office analysts effectively conducted in-depth quality
reviews of completed Privacy Impact Assessments submitted by system and program owners.
Further, the Privacy and Information Protection office complied with the updated privacy
reporting requirements by preparing and submitting required reports to the Department of the
Treasury.
Despite its commitment toward privacy and improvements from our prior review, the IRS
continues to face challenges in meeting legislative privacy requirements. Specifically, we found
that Privacy Impact Assessments:
          Had not been completed or updated for all systems or customer surveys where taxpayer
           or employee information have been collected and maintained.
          Had not been posted to the IRS’s public website.
          May not have been completed and submitted for internal SharePoint collaboration sites.
Our report provided 11 recommendations to address the privacy issues.
To summarize, although the IRS may have closed many of its information security weaknesses
identified in the past, we and the GAO continue to identify similar or new security weaknesses in
our recent audits of information technology initiatives and operations. For example, improper
security configuration control settings were found during the Premium Tax Credit, Treasury
Internet Connections initiative, and Virtualized Environment audits. Issues with capturing and
reviewing audit trail logs were found during the Treasury Internet Connections initiative,


33
     See Appendix IV, Ref. No. 2013-20-023.
34
     Pub. L. No. 107-347, § 208, 116 Stat. 2899 (2002).
                                                                                           Page 19
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



Virtualized Environment, BYOD, and CADE 2 audits. These findings, along with continued
cyberattacks against Government systems, bring us to conclude that the IRS needs to continue
efforts to reduce its security vulnerabilities.

Systems Development Projects to Support Modernization, Tax
Legislation Changes, and Tax Compliance Initiatives
The Business Systems Modernization Program (hereafter referred to as the Modernization
Program) is a major undertaking and involves a complex effort to modernize IRS technology and
related business processes. When the program stood up, estimates were that this initiative would
last up to 15 years. Now in its 15th year and with IRS budget information from March 2013
indicating a budget of over $426 million, the Modernization Program continues to make
improvements in electronic tax administration with projects like the Modernized e-File and
CADE 2.
The IRS’s modernization efforts also include modernizing taxpayer applications that allow
taxpayers to communicate with the IRS through the Internet, developing a shared infrastructure
and common business service solutions usable across multiple modernization projects, and
ensuring that systems solutions meet business needs and effectively integrate modernization
projects and programs. Building on last year’s organizational shift incorporating modernization
into the overall portfolio, the IRS’s IT organization renamed the Modernization Program
Management Office and Applications Development organization to the Enterprise Program
Management Office and Enterprise Applications Development, respectively. Successful
modernization of IRS systems and the development and implementation of new information
technology applications is necessary to meet evolving business needs and ensure the long-term
viability of IRS tax processing systems.
In February 2013, the GAO reported that it removed the Modernization Program from its High
Risk List.35 The GAO removed this program because:
          Progress was made in addressing significant weaknesses in information technology and
           financial management capabilities.
          The IRS delivered the initial phase of its cornerstone tax processing project and began the
           daily processing and posting of individual taxpayer accounts in January 2012. This
           enhanced tax administration and improved service by enabling faster refunds for more
           taxpayers, allowing more timely account updates, and providing faster issuance of
           taxpayer notices.




35
     GAO, GAO-13-359T, GAO’s High Risk Series – An Update, p.2 (Feb. 2013).
                                                                                              Page 20
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



      The IRS has put in place close to 80 percent of the practices needed for an effective
       investment management process, including all of the processes needed for effective
       project oversight.
      The IRS had embarked on an effort to improve its software development practices using
       the Carnegie Mellon University Software Engineering Institute’s Capability Maturity
       Model Integration, which calls for disciplined software development and acquisition
       practices that are considered industry best practices. In September 2012, the IRS’s
       application development organization reached Capability Maturity Model Integration
       Maturity Level 3, a high achievement by industry standards.
Although the GAO removed the Modernization Program from its High Risk List, we believe the
program remains a high risk and major management challenge for the IRS because of the needs
for improvements in information technology practices and performance. Some of these areas of
improvement are discussed below.
To help meet its business needs, the IRS IT organization developed the Integrated Release Plan.
This document is an evolving business planning tool that merges information about the
technology roadmap, release/capacity management, and budget. According to the IRS’s
IT organization, the objectives of the Integrated Release Plan include:
      Supporting continuous engagement with the non–information technology side of the IRS.
      Improving alignment of information technology investments, service, and delivery with
       IRS strategic goals.
      Facilitating enterprisewide “early warning” of risks and issues on essential projects.
      Enhancing situational awareness and enabling the IT organization to manage risks,
       resource contention, and tradeoff decisions.

The Modernized e-File system helps deliver the filing season
The Modernized e-File system is the IRS electronic filing system that enables real-time
processing of tax returns while improving error detection, standardizing business rules, and
expediting acknowledgements to taxpayers. It is a critical component to meet the needs of
taxpayers, reduce taxpayer burden, and broaden the use of electronic interactions. The IRS
modified the scope for Modernized e-File Release 8 to focus on correcting the performance
issues identified during Release 7 and delayed the implementation of new business taxpayer
forms to Release 9.




                                                                                           Page 21
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



During last year’s review of the Modernized e-File system,36 we recommended that the IRS defer
the retirement of the Legacy e-File system. During this year’s review,37 we found that the IRS
took important steps before the 2013 Filing Season to correct the system performance issues that
occurred during the 2012 Filing Season. The IRS increased the Release 8 test requirement for
the Performance Evaluation Testing Environment database by implementing a copy of the
Modernized e-File system production database. This production-sized database contained
23.1 million records, up from the 6.6 million records required for Release 7 testing. By doing so,
the IRS leveraged data from the production-sized database to help it obtain the required amount
of data needed to execute sustained performance testing. The IRS also implemented
enhancements to improve the delivery of files to downstream systems and increased the capacity
of the portal to guard against a decrease in overall performance.

Development of a new Return Review Program system is necessary to mitigate
fraud risks affecting the IRS’s environment for electronic tax administration
The IRS is developing a new Return Review Program system to implement its emerging business
model for a coordinated criminal and civil tax noncompliance system. Once developed and
implemented, the new system will significantly enhance the IRS’s capabilities to prevent, detect,
and resolve tax refund fraud, including identity theft. The IRS’s current system used to detect
fraud is the Electronic Fraud Detection System. At the time of our review, the IRS had
determined that the Electronic Fraud Detection System, which was implemented in 1994, is
outdated and would be inefficient to maintain, upgrade, or operate beyond Calendar Year 2015.
Successful implementation of the new Return Review Program system would increase the dollar
amount of fraudulent tax refunds identified annually.
During our review of the Return Review Program,38 we found that the roles for program-level
governance were not yet established and that the key role of system integrator was not
documented or clearly communicated. From January to December 2012, prototype activities
were conducted to validate that technology product solutions integrated successfully. However,
Return Review Program Prototype Management Plans, critical systems development products,
were not completed or approved by major stakeholders before significant resources were
committed. Uncertainty about the systems development path for the Return Review Program
and the absence of Enterprise Life Cycle guidance for prototypes hindered initial systems
development efforts. Further, alternative commercial software products were not fully
considered prior to selecting technology solutions for the Return Review Program system. Our



36
   TIGTA, Ref. No. 2012-20-121, Despite Steps Taken to Increase Electronic Returns, Unresolved Modernized
E-File System Risks Will Delay the Retirement of the Legacy e-File System and Implementation of Business Forms
(Sept. 2012).
37
   See Appendix IV, Ref. No. 2013-20-029.
38
   See Appendix IV, Ref. No. 2013-20-063.
                                                                                                       Page 22
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



report provided six recommendations to address our findings on initial development activities for
the Return Review Program system.
The National Taxpayer Advocate’s Annual Objectives Report to Congress39 recently cited
concerns about the implementation of the Return Review Program system. The report stated:
        …the IRS is now forced to consider non-deployment or a limited deployment
        of RRP [Return Review Program]. On January 15, 2013, the Information
        Technology division reported that it did not have enough resources available to
        bring RRP online by the January 1, 2015, deadline. Even with the additional
        resources, the IRS would still need another year (until January 1, 2016) to
        complete the system.
        Not deploying the RRP as intended could impose significant harm and cost on
        both the IRS and the public. An unexpected failure of the EFDS system
        [Electronic Fraud Detection System] would force the IRS to decide whether to
        stop issuing refunds until the system could be repaired, or issue billions of dollars
        in potentially fraudulent refunds without screening. In addition, as EFDS
        becomes harder to update and maintain, it could erroneously stop an increasing
        number of valid refunds. The lack of automation to handle administrative
        adjustments and actions is straining the IRS’s limited resources as fraud and
        identity theft grow and staffing declines.

The FATCA aims to improve international compliance
The FATCA is an important development in the U.S. efforts to improve tax compliance
involving foreign financial assets and offshore accounts.40 Changes required by the FATCA will:
(1) combat tax evasion by U.S. persons holding investments in offshore accounts, (2) expand the
IRS’s global presence, (3) pursue international tax and financial crimes, (4) fill a gap in the IRS’s
information reporting system, and (5) generate additional enforcement revenue. The Department
of the Treasury issued the final FATCA regulations on January 28, 2013.
During our review,41 we found that the IRS is developing the FRS within its new Enterprise Life
Cycle Iterative Path systems development and testing process. The initial system release was
substantially developed and nearing deployment when the IRS terminated the effort in
November 2012. Following new Department of the Treasury regulations, changes with
intergovernmental agreements, and new processes needed to implement the FATCA, the IRS
was unable to fully utilize the initial system. Subsequently, the IRS modified and expanded the
scope of the system requirements. The major redesign and initiation of a new development effort

39
   National Taxpayer Advocate, Fiscal Year 2014 Objectives Report to Congress (June 2013).
40
   The FATCA legislation was enacted as part of the Hiring Incentives to Restore Employment Act; Pub. L. No.
111-147, 124 Stat. 71 (2010).
41
   See Appendix IV, Ref. No. 2013-20-118.
                                                                                                       Page 23
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program



was necessary because the IRS did not sufficiently develop requirements for the initial FRS as
needed for new system development. We identified a potential inefficient use of resources of
$2.2 million based on the IRS exceeding its original cost estimate of $14.4 million to develop
and deploy the FRS.
Further, while the IRS has taken steps to improve management controls for this major
information technology investment, additional improvements are needed to ensure consistent risk
mitigation within program management processes, testing practices, and system requirements
management. Our report provided six recommendations to address these issues.

CADE 2 system
The CADE 2 program is one of the top information technology modernization projects in the
IRS. The CADE 2 mission is to provide state-of-the-art individual taxpayer account processing
and data-centric technologies to improve service to taxpayers and enhance tax administration.
CADE 2 will replace the current Individual Master File account settlement system with a
relational database processing system and become a key component in the IRS’s enterprisewide,
data-centric information technology strategy.
Transition State 1 has two major implementation pieces: Daily Processing and Database
Implementation. Daily Processing, which uses the Individual Master File and not the CADE 2
database, went into production in January 2012. Figure 8 shows the difference in daily
processing from CADE to CADE 2.
              Figure 8: Comparison of CADE and CADE 2 Daily Processing




Source: IRS IT organization, Fiscal Year 2013 3rd Quarter IT Investment Report Version 2.2, dated June 30, 2013.

The March 2013 Information Technology Business Value Chart reported that as of
March 28, 2013, CADE 2 Transition State 1 Daily Processing posted over 72.65 million returns
                                                                                                        Page 24
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



and issued 66.54 million refunds totaling in excess of $174.43 billion. With the CADE 2
Transition State 1 Daily Processing cycle, the IRS can process returns faster and IRS customer
service representatives can more quickly access and update taxpayer records to resolve
discrepancies.
Database Implementation, while not fully implemented, developed a relational database to store
individual taxpayer account data migrated from Individual Master File tape files on a daily basis.
In March 2012, the IRS initialized version 2.1 of the CADE 2 database with 270 million
individual taxpayer accounts and more than a billion tax modules. The IRS completed a second
database initialization in October 2012 and kept the database current and in sync with the
Individual Master File data through December 2012.
During our review42 of the database deployment, we found that the CADE 2 database
cross-functional triage team effectively managed and resolved more than 1,000 data defects.
However, our review determined that the downstream system interfaces were not implemented
because of data quality issues that exist with the CADE 2 database. The interfaces were also not
implemented by the June 2013 revised date, which had a revised estimated cost of $83 million.
In addition, the CADE 2 database’s lack of accuracy, completeness, and availability prevents it
from serving as the trusted source for the downstream systems. We also determined that the
solution architecture of the CADE 2 database interfaces does not meet the IRS’s business needs
because it does not meet performance expectations and creates resource contention situations
between servicing online transactions and query operations. Our report provided four
recommendations to address these issues.

Implementation of New Systems for the Patient Protection and
Affordable Care Act Provisions
The ACA contains an extensive array of tax law changes that will present a continuing source of
challenges for the IRS in the coming years. While the Department of Health and Human
Services has the lead role in the policy provisions of the ACA, the IRS administers the law’s
numerous tax provisions. The IRS estimates that at least 42 provisions will either add to or
amend the tax code and at least eight will require the IRS to build new processes that do not exist
within the current tax administration system. In addition, the IRS must create new or revise
existing tax forms, instructions, and publications; revise internal operating procedures; and
reprogram major computer systems used for processing tax returns.
Results from our audits illustrate the need for continued oversight of the IRS’s administration of
many of these tax-related provisions. In addition, during our July 2013 congressional



42
     See Appendix IV, Ref. No. 2013-20-097.
                                                                                           Page 25
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



testimony,43 we raised the following three concerns regarding implementation of the ACA
provisions:
        The protection of Federal tax data provided to the Exchanges.
        New fraud prevention or existing fraud detection systems may not be operational in
         sufficient time to mitigate ACA fraud risks.
        Final integration testing for IRS and Department of Health and Human Services systems
         may not be completed before the start of the enrollment period (October 2013).
Several key ACA provisions will become effective in Fiscal Year 2014, making both Fiscal
Year 2014 and Calendar Year 2015 significant periods for ACA oversight. Because of the
extensive changes to numerous tax code provisions, our concerns related to the development and
implementation of new ACA systems, and the extensive coordination required between all of the
stakeholders to effectively administer the ACA, we have implemented a multiyear oversight
strategy that includes audits, evaluations, and investigative resources to assess the IRS’s
implementation of the ACA. This strategy includes coordination with other agencies, such as the
Department of Health and Human Services Office of the Inspector General. Our system
development reviews of the IFSV and Advanced Premium Tax Credits Project identified
deficiencies that should be addressed to ensure long-term success of the IRS’s efforts to develop
and implement new information technology systems within its ACA Program.

IFSV Project
The IFSV Project is a core project of the ACA Program and will support open enrollment
beginning in October 2013. The IFSV Project is important to the functionality and success of the
ACA Program because it is responsible for developing a solution that will verify income and
family size, based on tax return data, for determining an individual’s eligibility for the Advanced
Premium Tax Credit for health insurance.
By the end of August 2012, the IFSV Project had completed all six systems development
components, each delivering a piece of approved functionality.44 While cost data specific to the
IFSV Project were not readily available during our audit, the IRS is generally managing systems
development risk areas with the implementation of the new Iterative Path within the Enterprise
Life Cycle. However, process improvements are needed to better ensure that (1) the IFSV
Project team adheres to configuration management guidelines when baselined requirements are
changed and (2) the ACA Program Configuration Control Board emergency meeting processes
are effectively communicated. Further, an integrated suite of automated tools could improve

43
   ACA – Information Technology Readiness and Data Security: Joint Hearing Before the Committees on Oversight
and Government Reform and Homeland Security, 113th Cong. (July 17, 2013) (statement of Alan R. Duncan,
Assistant Inspector General for Audit, TIGTA).
44
   See Appendix IV, Ref. No. 2013-23-034.
                                                                                                    Page 26
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



requirements management and testing for the IFSV Project. Our report provided three
recommendations to address these issues.

Premium Tax Credit Program
Beginning in January 2014, eligible taxpayers who purchase health insurance through an
Exchange may qualify for and request a refundable tax credit, the Premium Tax Credit, to assist
with paying their health insurance premium. The Premium Tax Credit will be claimed on the
taxpayer’s Federal tax return at the end of each coverage year. Because it is a refundable credit,
taxpayers who have little or no income tax liability can still benefit. The Premium Tax Credit
can also be paid in advance to a taxpayer’s health insurance provider to help cover the cost of
premiums. This credit is referred to as the Advanced Premium Tax Credit.
Our review found that the IRS had completed development and testing for the Premium Tax
Credit Computation Engine needed to calculate the Advanced Premium Tax Credit and the
Remainder Benchmark Household Contribution.45 The IRS has also developed a process to
verify the accuracy of the Premium Tax Credit Computation Engine calculations. However,
improvements are needed to ensure the long-term success of the Premium Tax Credit Project by
adhering to important systems development controls for configuration and change management,
interagency testing, and fraud detection and mitigation. Our report provided seven
recommendations to address these issues.

Updates for the Integrated Financial System to Support Internal
Revenue Service Operations
In November 2004, the IRS replaced the Automated Financial System with the IFS. The system
was implemented as a major project under the Modernization Program, but in November 2005
the IFS was reclassified as Operations and Maintenance funding. For Fiscal Years 2012 and
2013, the IRS requested nearly $37.5 million to upgrade the IFS. The IRS recently initiated
approximately $10.5 million in system updates for the IFS that include: 1) encryption of
graphical user interface traffic, 2) update of the platform with functional enhancements, and
3) support of a Department of the Treasury mandate for all Federal agencies. At the time of our
review,46 the IRS planned to complete deployment of these system updates in November 2012.
During our audit of the IFS, we found that the IRS did not comply with Internal Revenue Manual
guidance requiring that test cases be developed to support requirements testing and that the
expected results from testing should be compared to the actual results to determine if
requirements were sufficiently tested. Additionally, our audit found that the IRS did not
maintain evidence to validate the actual test results. IFS management did not ensure that testers


45
     See Appendix IV, Ref. No. 2013-23-119.
46
     See Appendix IV, Ref. No. 2013-20-030.
                                                                                           Page 27
                        Annual Assessment of the Internal Revenue Service
                                 Information Technology Program



consistently followed Internal Revenue Manual guidelines to obtain and maintain objective
evidence, such as screen prints, to verify that requirements were sufficiently tested. When
expected results are not fully presented in test cases, or documents used to verify actual test
results are not available, the IRS cannot verify the adequacy of its system testing activities. This
increases the risks of adverse impact on the functionality of the IFS. Our report provided six
recommendations to address these issues.

Information Technology Service Management Disciplines to Achieve
Program Efficiencies and Savings Were Implemented; However,
Additional Cost Savings Can Be Realized
The IRS IT organization plays an important role in helping the IRS meet its tax administration
responsibilities each year. It is not only responsible for the efficient and secure processing and
transfer of taxpayer data, but it also supports the needs of over 95,000 employees who rely on
equipment and system availability. The IRS needs to ensure that it leverages viable
technological advances as it improves its overall operational environment.
Attaining Information Technology Infrastructure Library (ITIL®) maturity is a critical milestone
for the IRS in developing a world-class information technology infrastructure that will create
greater efficiency and productivity in supporting taxpayers and meeting the IRS’s mission. The
ITIL is a set of practices for information technology service management. The ITIL focuses on
the five key service management principles pertaining to service strategy, design, transition,
operation, and continual improvement. The IRS reported that the IT organization had achieved
ITIL Maturity Level 3 in October 2012.
Achieving program efficiencies and cost savings is an important area for the IRS, especially
when considering that its Fiscal Year 2012 budget was reduced over $300 million from Fiscal
Year 2011. As a result of its reduced budget, the IRS reduced its administrative costs, offered
early outs and buyouts, and made difficult decisions affecting taxpayer services and enforcement
operations. While the IRS has made progress improving program effectiveness and reducing
costs, this area continues to remain a challenge for the IRS. Our recent audit work illustrates the
IRS’s accomplishments and opportunities to achieve cost savings in information technology
areas including data center consolidation, hardware management, and software management.
Several of our reviews resulted in the reporting of outcome measures. See Appendix V for a list
of outcome measures we reported in Fiscal Year 2013.

Data Center Consolidation Initiative
In February 2010, the OMB established the Federal Data Center Consolidation Initiative as a
Governmentwide initiative designed to reduce the energy and real estate footprint of Federal data
centers while increasing efficiency, strengthening the overall Government security posture, and
promoting green information technology by reducing the total number of Federal data centers.

                                                                                            Page 28
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program



The IRS has exceeded its yearly goals in the first two years for reducing data center space and
improving the energy efficiency of its data centers. However, management of the project needs
to be improved to ensure that the IRS meets its remaining Data Center Consolidation Initiative
goals by the end of Fiscal Year 2015. Two years of the IRS’s five-year Data Center
Consolidation Initiative have elapsed without a clear plan for how the overall data center space
reduction goals will be accomplished. During our review,47 the IRS decided to close the
Enterprise Computing Center in Detroit, with an estimated savings of approximately $15 million
per year. Our report provided eight recommendations to address these issues.

Aircard and BlackBerry® Smartphone Program
Our audit identified that the processes for assigning and monitoring the use of aircards and
BlackBerry smartphones are not adequate.48 We found that assignment of these devices is
generally based on job series classifications without adequately ensuring that a business need
exists. For example, management did not always consider the frequency an employee actually
works outside an IRS office prior to assigning devices. We also found that managerial approvals
were not always obtained when employees who were not in a profiled job series were assigned
these devices. We identified 2,560 devices without documented management approval, costing
the IRS more than $950,000 in Fiscal Year 2011, or potentially about $4.8 million over
five years.
In addition, processes for monitoring aircard and BlackBerry smartphone use do not ensure that
the IRS is not paying for unused or underused equipment. Established processes to notify
employees when aircards were not used for 90 calendar days were not being followed, and there
was no formal process to monitor BlackBerry smartphone use for similar periods of inactivity.
We identified periods of inactivity during Fiscal Year 2011 for aircards and BlackBerry
smartphones ranging from three to 12 months; however, the IRS still incurred monthly access
fees totaling approximately $1.1 million for these devices. Our report provided six
recommendations to address these issues.

Information technology hardware maintenance contracts
Our review identified several weaknesses in the oversight of selected information technology
hardware maintenance contracts.49 Specifically, we found instances where contracting personnel
were not always effectively monitoring the contracts. We also identified an instance where the
IRS did not receive contract deliverables in accordance with the contract’s requirements or
submit written modifications when necessary to update an existing contract. These scenarios
could potentially cause the IRS to unnecessarily pay for maintenance on assets that have been
retired and no longer need this service. When contracts are not properly administered, the IRS

47
   See Appendix IV, Ref. No. 2013-20-013.
48
   See Appendix IV, Ref. No. 2013-10-010.
49
   See Appendix IV, Ref. No. 2013-22-094.
                                                                                        Page 29
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



may not receive the desired outcome or the best return on its investment. Our report provided
two recommendations to address these issues.

Treasury Enhanced Security Initiatives Project
In addition to the information security deficiencies discussed in an earlier section of this report,
we found that the IRS appropriately acquired the project’s multiple software components and the
project team completed key documentation during the development process, ensuring that critical
issues were identified and addressed.50 However, the project experienced several delays, and the
project’s oversight board did not take required actions to manage the delays or associated costs.
At the time of our review, the IRS was scheduled to deploy the security tools in December 2010
but now plans to complete the deployment in May 2013. As a result, we identified a potential
outcome measure of $1,151,939 in inefficient use of resources on contractor support services for
the Treasury Enhanced Security Initiatives Project from its original December 2010 planned
deployment of the Symantec Risk Automation Suite component through April 2012. Our audit
report provided three recommendations to address these issues.

The Internal Revenue Service Needs to Strengthen Its Hardware and
Software Management Processes
As previously mentioned, the IRS achieved a significant milestone in October 2012 when an
independent research company affirmed that the IRS IT organization had achieved ITIL Maturity
Level 3. Maturity Level 3 is when the organization is in a proactive, rather than reactive, stage
and has a set of defined, documented, established, and integrated processes; it focuses on the
customer and appropriate level of service support provided by information technology
operations. IRS information technology services have successfully completed the ITIL process
called Service Transition, which incorporates asset management. Attaining this maturity is
critical for the IRS in developing a world-class information technology infrastructure that will
create greater efficiency and productivity in supporting taxpayers and meeting the IRS’s mission.
Although the IRS IT organization achieved this major milestone, it needs to work to correct the
deficiencies identified during our reviews of information technology asset management system
and software licensing.

Improvements to hardware asset management are needed to ensure complete
and accurate inventory data
In August and September 2011, the User and Network Services organization replaced its former
inventory system, Information Technology Asset Management System, with the KISAM system.
The User and Network Services organization recognizes the KISAM-AM module as the sole
authoritative source and official inventory record for all information technology assets within the

50
     See Appendix IV, Ref. No. 2013-20-016.
                                                                                           Page 30
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



IRS [with the exception of information technology software assets (to include software and
software licenses)].
Although the IRS successfully migrated inventory data between the legacy inventory system and
the KISAM-AM, our review identified that the procedures established to ensure the accuracy of
information technology asset records within the KISAM-AM were not being followed.51 Our
review also identified several conditions demonstrating the IT organization’s inability to
maintain effective controls over its information technology assets. For example, IRS offices did
not always properly conduct the reconciliation of information technology assets and resolve
those asset records identified as needing updating or correcting. In addition, offices were not
taking sufficient steps to recover assets placed in a temporary “missing” status, and the reports
used by the offices to track down missing assets did not provide disposal information. An
inaccurate and incomplete inventory system decreases data integrity and exposes the IRS to the
loss or theft of its assets. Our report provided eight recommendations to address these issues.
Improvements to software asset management are needed to ensure resources are
used efficiently
During our audit of desktop and laptop software licensing,52 we found that the IRS does not have
enterprisewide or local software license management policies and procedures, an enterprisewide
license management structure, or roles and responsibilities for the organizational entities that
conduct software license management. In addition, the lack of an enterprisewide inventory with
comprehensive data on all software and software licensing impedes the ability of the IRS to more
thoroughly analyze the relationships among its software license agreements and vendors to more
cost-effectively buy software licenses and maintenance.
Until the IRS implements an effective program to manage software licenses, the IRS is incurring
increased risks in managing software licenses. These risks include: 1) not complying with
licensing agreements that could result in embarrassment, legal problems, and financial liability;
2) not using licenses in the most cost-effective manner; and 3) not effectively using licensing
data to reduce software purchase and software maintenance costs. Our report provided six
recommendations to address these issues.

There Has Been a Lack of Progress in Providing Taxpayer Access to
Account Information via the Internet
RRA 98 required the IRS to develop procedures to allow taxpayers filing returns electronically to
review their account online by December 31, 2006; the IRS did not meet this requirement. The
objective of the IRS eAuthentication Project is to design and build a common service to proof
and register individuals and to provide and validate credentials for ongoing system access using

51
     See Appendix IV, Ref. No. 2013-20-089.
52
     See Appendix IV, Ref. No. 2013-20-025.
                                                                                         Page 31
                              Annual Assessment of the Internal Revenue Service
                                       Information Technology Program



the Internet. The IRS stated that the Get Transcript application is set to launch in January 2014,
which will provide the first step toward expanding transcript access online.
Our review of the IRS’s development and implementation of an effective eAuthentication
solution for taxpayers to access their tax information53 found that applications were created to
increase online taxpayer functionality; however, these applications do not meet the criteria of
RRA 98. The IRS has not made adequate progress in allowing taxpayers to access tax accounts.
Currently, taxpayers cannot review account information electronically.
We believe that IRS leadership did not prioritize the applications that meet the requirements of
RRA 98. Rather, the IRS devoted resources to the development and implementation of several
applications that do not meet the intent of RRA 98. For example, in August 2012, the IRS
deployed the eTranscripts for Banks application, which allowed a small number of taxpayers to
securely verify their identities with the IRS and participate in the eTranscripts for Banks
program. However, the application does not meet the intent of RRA 98 because it only allows
taxpayers to request that their tax account and tax return transcripts be sent to their lending
institution electronically versus a hardcopy request. It does not provide the ability to view, print,
or perform any other functions. In March 2013, the IRS deployed the Where’s My Amended
Return?54 application, but it did not directly meet the requirements of account review. However,
both applications provided ancillary benefits to taxpayers. Besides not developing applications
that meet the RRA 98 requirements, we found the following problems.
          The IRS eAuthentication project team did not perform complete capacity testing on
           eAuthentication Release 1 for several reasons (e.g., instability of the IRS information
           technology infrastructure and concerns over the security of data in the testing
           environment). Without capacity testing, the IRS does not know how many users can
           access eAuthentication at once before it fails and cannot verify whether eAuthentication
           will function as intended.
          Actual cost information is not readily available for the project because the project office
           has no formal system to obtain actual costs. The project manager uses a less formal
           approach (e.g., calling people or manually tracking expenses) to obtain actual cost
           information. Due to the informal nature of the process used, the cost information
           obtained and ultimately reported to Cybersecurity executive management are estimates
           and may be inaccurate and unreliable. Executive management should be given the best
           information possible when making key resource decisions.
Our audit report provided three recommendations to address these issues.




53
     See Appendix IV, Ref. No. 2013-20-127.
54
     Allows taxpayers to track the status of an amended return.
                                                                                               Page 32
                            Annual Assessment of the Internal Revenue Service
                                     Information Technology Program



Potential Savings for New Bring Your Own Device Pilot
Businesses and Government agencies are receptive to BYOD programs because they have the
potential to provide cost savings, increase productivity, and improve employee satisfaction.
Employees tend to like the BYOD program because it allows them to use their own preferred
device and, if they are required to have a cell phone for work, carry only one device. Cost
savings can be realized if the organization’s cell phone ownership, service, and/or support are
reduced or discontinued as a result of a BYOD program. Additionally, achieving benefits is
contingent on implementation details and workforce acceptance.
The driving force behind the BYOD program at the IRS has been the investigation of mobile
technology that provides business value to employees and increases employee productivity and
satisfaction. Starting in September 2010, the IRS began a phased approach to implement a
BYOD program. In June 2012, the IRS started its third phase, a true BYOD program, enabling it
to connect up to 1,000 devices.
Our audit of the IRS’s BYOD Pilot Project55 found that the IRS took several noteworthy actions
to implement its BYOD pilot, including taking a phased approach and considering security.
However, although it has spent more than $900,000 on mobility efforts to date, the IRS has not
developed a complete cost-benefit analysis to fully justify the implementation of the BYOD
concept within the IRS.
While the IRS prepared a simple cost analysis that compared the estimated cost of a BYOD
program to the cost of the IRS’s existing BlackBerry and cell phone programs prior to starting
the BYOD pilot, the analysis was not updated with complete information on assumptions and
costs. Consequently, as the pilot expanded, IRS managers relied on the original assumptions and
cost projections in the analysis, which did not provide a sufficient basis for informed
decisionmaking. BYOD could provide significant benefits; however, these benefits are just
conjecture until the IRS conducts a thorough cost-benefit analysis. Our audit report provided
one recommendation to address this issue.




55
     See Appendix IV, Ref. No. 2013-20-108.
                                                                                          Page 33
                      Annual Assessment of the Internal Revenue Service
                               Information Technology Program



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the progress of the IRS’s Information Technology Program,
including modernization, security, and operations for Fiscal Year 2013. This review was
required by the RRA 98. To accomplish our objective, we:
I.     Obtained information on the IRS budget and staffing to provide context on the size of the
       IRS IT organization.
II.    Assessed systems security and privacy issues. We determined which are at high risk in
       delivering IRS program objectives and protecting tax administration data.
       A. Obtained and reviewed TIGTA’s Systems Security Directorate audit reports issued
          during Fiscal Year 2013. During the review, we analyzed and prepared an overall
          assessment of security and privacy issues.
       B. Identified and summarized other relevant TIGTA and/or external oversight
          assessments dealing with security and privacy (e.g., assessments performed by the
          GAO and the National Taxpayer Advocate).
III.   Assessed systems modernization and applications development issues. We determined
       which are at high risk in delivering IRS program objectives and protecting tax
       administration data.
       A. Obtained and reviewed TIGTA’s Systems Modernization and Applications
          Development Directorate audit reports issued during Fiscal Year 2013. During the
          review, we analyzed and prepared an overall assessment of modernization and
          applications development issues.
       B. Identified and summarized other relevant TIGTA and/or external oversight
          assessments dealing with modernization and applications development (e.g.,
          assessments performed by the GAO and the National Taxpayer Advocate).
IV.    Assessed systems operations issues. We determined which are at high risk in delivering
       IRS program objectives and protecting tax administration data.
       A. Obtained and reviewed TIGTA’s Systems Operations Directorate audit reports issued
          during Fiscal Year 2013. During the review, we analyzed and prepared an overall
          assessment of systems operations issues.




                                                                                        Page 34
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



       B. Identified and summarized other relevant TIGTA and/or external oversight
          assessments dealing with operations (e.g., assessments performed by the GAO and
          the National Taxpayer Advocate).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not evaluate internal
controls as part of this review because doing so was not necessary to satisfy our review
objective.




                                                                                        Page 35
                      Annual Assessment of the Internal Revenue Service
                               Information Technology Program



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwen McGowan, Director, Systems Modernization and Applications Development
Kent Sagara, Director, Systems Security
Danny Verneuille, Director, Systems Operations
Diana Tengesdal, Audit Manager
Sarah Shelton, Lead Auditor
Charlene Elliston, Senior Auditor
Louis Lee, Senior Auditor
Larry Reimer, Senior Auditor
Tina Wong, Senior Auditor




                                                                                     Page 36
                     Annual Assessment of the Internal Revenue Service
                              Information Technology Program



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Office of the Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Operations OS:CTO
Deputy Chief Information Officer for Strategy and Modernization OS:CTO
Deputy Commissioner, Services and Operations SE:W
Associate Chief Information Officer, Affordable Care Act – Program Management Office
OS:CTO:ACA
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Information Technology – Program Management Office
OS:CTO:MP
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO;CPIC:IC
Audit Liaison: Director, Business Planning and Risk Management OS:CTO:SP:RM




                                                                                   Page 37
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program



                                                                               Appendix IV

            List of Treasury Inspector General for
            Tax Administration Reports Reviewed

         Reference                                                                  Report
Number    Number                         Audit Report Title                     Issuance Date

                         Inadequate Aircard and BlackBerry Smartphone
  1      2013-10-010     Assignment and Monitoring Processes Result in         January 11, 2013
                         Millions of Dollars in Unnecessary Access Fees
                         The Data Center Consolidation Initiative Has Made
                         Significant Progress, but Program Management
  2      2013-20-013                                                             June 10, 2013
                         Should Be Improved to Ensure That Goals Are
                         Achieved
                         Significant Delays Hindered Efforts to Provide
  3      2013-20-016     Continuous Monitoring of Security Settings on         January 24, 2013
                         Computer Workstations
                         Improvements Are Needed to Ensure the Effectiveness
  4      2013-20-023                                                           February 27, 2013
                         of the Privacy Impact Assessment Process
                         Desktop and Laptop Software License Management Is
  5      2013-20-025                                                             June 25, 2013
                         Not Being Adequately Performed
                         Integrated Financial System Updates Are Improving
  6      2013-20-030     System Security, but Remaining Weaknesses Should       March 28, 2013
                         Be Addressed
                         Affordable Care Act: The Income and Family Size
                         Verification Project: Improvements Could Strengthen
  7      2013-23-034                                                            March 29, 2013
                         the Internal Revenue Service’s New Development
                         Process
                         Enhancements Made to the Modernized e-File System
  8      2013-20-039     in Release 8 Should Improve System Performance for     April 22, 2013
                         the 2013 Filing Season
                         Improvements Are Needed to Ensure Successful
  9      2013-20-063     Development and System Integration for the Return       July 26, 2013
                         Review Program


                                                                                        Page 38
                       Annual Assessment of the Internal Revenue Service
                                Information Technology Program




         Reference                                                                   Report
Number    Number                         Audit Report Title                      Issuance Date

                         Weaknesses in Asset Management Controls Leave
  10     2013-20-089                                                           September 16, 2013
                         Information Technology Assets Vulnerable to Loss
                         Customer Account Data Engine 2 Database
  11     2013‐20‐125     Deployment Is Experiencing Delays and Increased       September 23, 2013
                         Costs
                         Automated Monitoring Is Needed for the Virtual
  12     2013-20-106                                                           September 18, 2013
                         Infrastructure to Ensure Secure Configurations
                         Full Compliance With Trusted Internet Connection
  13     2013-20-107     Requirements Is Progressing; However,                 September 17, 2013
                         Improvements Would Strengthen Security
                         Better Cost-Benefit Analysis and Security Measures
  14     2013-20-108                                                           September 24, 2013
                         Are Needed for the Bring Your Own Device Pilot
                         Improved Controls Are Needed to Ensure That All
  15     2013-20-117     Planned Corrective Actions for Security Weaknesses    September 27, 2013
                         Are Fully Implemented to Protect Taxpayer Data
                         Foreign Account Tax Compliance Act: Improvements
                         Are Needed to Strengthen Systems Development
  16     2013-20-118                                                           September 27, 2013
                         Controls for the Foreign Financial Institution
                         Registration System
                         Increased Oversight of Information Technology
  17     2013-22-094     Hardware Maintenance Contracts Is Necessary to        September 24, 2013
                         Ensure Against Paying for Unnecessary Services
                         Affordable Care Act: Improvements Are Needed to
  18     2013-23-119     Strengthen Systems Development Controls for the       September 27, 2013
                         Premium Tax Credit Project
                         While Efforts Are Ongoing to Deploy a Secure
                         Mechanism to Verify Taxpayer Identities, the Public
  19     2013-20-127                                                           September 25, 2013
                         Still Cannot Access Their Tax Account Information
                         Via the Internet
  20     2013-20-128     Fiscal Year 2013 FISMA Unclassified Systems           September 27, 2013




                                                                                        Page 39
                        Annual Assessment of the Internal Revenue Service
                                 Information Technology Program



                                                                                     Appendix V

    Outcome Measures Reported in Fiscal Year 2013


          Audit Report Title                     Type of Measure                    Amount

Inadequate Aircard and BlackBerry
Smartphone Assignment and Monitoring       Cost Savings – Funds Put to
                                                                          $5.9 million over 5 years
Processes Result in Millions of Dollars    Better Use
in Unnecessary Access Fees

The Data Center Consolidation Initiative
Has Made Significant Progress, but
                                           Cost Savings – Funds Put to
Program Management Should Be                                              $60 million over 4 years
                                           Better Use
Improved to Ensure That Goals Are
Achieved

                                           Reliability of Information     60,548 assets
Weaknesses in Asset Management
Controls Leave Information Technology
                                                                          106 assets totaling
Assets Vulnerable to Loss                  Protection of Resources
                                                                          $6,857,798

Foreign Account Tax Compliance Act:
Improvements Are Needed to Strengthen
Systems Development Controls for the       Inefficient Use of Resources   $2.2 million
Foreign Financial Institution
Registration System




                                                                                                Page 40
                         Annual Assessment of the Internal Revenue Service
                                  Information Technology Program



                                                                                        Appendix VI

                                 Glossary of Terms

Term                       Definition
Advanced Premium Tax       Paid in advance to a taxpayer’s insurance company to help cover the cost of
Credit                     premiums.
Affordable Care Act        In March 2010, the President signed into law the Patient Protection and
(ACA)                      Affordable Care Act to provide more Americans with access to affordable
                           health care by January 1, 2014.
Asset Manager              KISAM module that tracks both information technology and
                           non–information technology equipment used throughout the IRS.
Auditable Events           Actions taken on IRS systems that shall be captured and recorded for
                           subsequent audit review based on the impact level of the system (high,
                           moderate, or low) as determined by the guidelines in the NIST Federal
                           Information Processing Standards 199, Standards for Security Categorization
                           of Federal Information and Information Systems. Internal Revenue
                           Manual 10.8.3 contains lists of auditable events applicable to the systems
                           categorized as high, moderate, or low based on the NIST standards.
Baseline Configuration     A set of specifications for a system, or configuration item within a system,
                           that has been formally reviewed and agreed on at a given point in time and
                           that can be changed only through change control procedures. The baseline
                           configuration is used as a basis for future builds, releases, and/or changes.
Best Practices             Proven activities or processes that have been successfully used by multiple
                           organizations.

Capacity Test              Test used to determine how many users and/or transactions a given
                           system will support and still meet performance goals.
Change Management          The transition of a changed or new product through development to
                           deployment into the current production environment with minimum disruption
                           to users. This can occur in a number of ways, including, but
                           not limited to: (1) implementation of a change to a product baseline,
                           (2) establishing a new product baseline, and (3) a change to a Service Level
                           Agreement.




                                                                                                  Page 41
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program




Term                        Definition
Change Request              The method for requesting approval to change a baselined product or other
                            controlled item.
Citrix Environment          Provides an environment for use on server and desktop virtualization and
                            cloud computing technologies.
Configuration Control       Serves as the change approval authority for baselined products.
Board
Configuration Settings      The set of parameters that can be changed in hardware, software, and/or
                            firmware that affect the security posture and/or functionality of the
                            information system.
Consolidation               An approach to reducing data center space that involves moving servers to a
                            few selected data centers or moving small data centers to larger centers.
Corporate Files Online      This system provides online transactional access to Individual and Business
                            Master File data, Information Return Program data, and various other related
                            data collections. These files are accessed via IRS-developed Customer
                            Information Control System command codes.
Customer Account Data       An IRS application that will replace the existing Individual Master File and
Engine 2                    CADE applications. The CADE 2 is designed to provide state-of-the-art
                            individual taxpayer account processing and technologies to improve service to
                            taxpayers and enhance IRS tax administration.
Database Administrator      An individual that performs all activities related to maintaining a correctly
                            performing and secure database environment. Responsibilities include design,
                            implementation, and maintenance of the database system.
Encryption                  The process of making data unreadable by other humans or computers for the
                            purpose of preventing others from gaining access to its contents.
Enterprise Life Cycle       A structured business systems development methodology that requires the
                            preparation of specific work products during different phases of the
                            development process.
Federal Information         A statute that requires agencies to assess risks to information systems and
Security Management Act     provide information security protections commensurate with the risks. The
(FISMA)                     FISMA also requires that agencies integrate information security into their
                            capital planning and enterprise architecture processes, conduct annual
                            information systems security reviews of all programs and systems, and report
                            the results of those reviews to the OMB. (Title III, P.L. 107-347.)



                                                                                                Page 42
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program




Term                        Definition
Filing Season               The period from January through mid-April when most individual income tax
                            returns are filed.
Fiscal Year                 A 12-consecutive-month period ending on the last day of any month. The
                            Federal Government’s fiscal year begins on October 1 and ends on
                            September 30.
Form 1099                   The 1099 series is used to report various types of income received throughout
                            the year other than the wages paid.
Form W-2                    A form used to report an employee’s wages paid and taxes withheld for the
                            year.
Governance                  A set of processes, guidelines, and policies that guide and affect the direction
                            of an organization’s behavior or assets.
Government                  The audit, evaluation, and investigative arm of Congress that provides
Accountability Office       analyses, recommendations, and other assistance to help Congress make
                            informed oversight, policy, and funding decisions.
Green Information           Optimal use of information and communication technology for managing the
Technology                  environmental sustainability of enterprise operations as well as that of their
                            products, services, and resources, throughout their life cycles.
Health and Human            The U.S. Government’s principal agency for protecting the health of all
Services                    Americans and providing essential human services.

Impact Assessment           Evaluation of a change request to determine its impact on a project’s schedule,
                            cost, other dependent projects, and upstream and downstream systems.
Income and Family Size      Will verify income and family size for individuals requesting eligibility for an
Verification                Advanced Premium Tax Credit for health insurance.

Individual Master Files     This system provides online transactional access to Individual Master File
Online                      data. See entry for Corporate Files Online.
Information Technology      Provides guidelines for the use and management of software and licenses.
Infrastructure Library      The ITIL® is a widely accepted set of concepts and practices for information
                            technology service management derived from user and vendor experts in both
                            the private and public sectors. It focuses on key service management
                            principles pertaining to service strategy, design, transition, operation, and
                            continual improvement, with each principle being covered in a separate ITIL
                            core publication. Software asset management is a key process described
                            within the service transition core publication.


                                                                                                   Page 43
                           Annual Assessment of the Internal Revenue Service
                                    Information Technology Program




Term                         Definition
                             The ITIL also has a separate publication entitled Best Practice Software Asset
                             Management that covers software asset and license management best practices
                             in more depth than the core publication. ITIL best practices recommend
                             1) the development of software license management policies and procedures
                             and roles and responsibilities; 2) a centralized, enterprisewide management
                             structure for software asset management; 3) the use of software license
                             management tools; and 4) the creation and maintenance of accurate
                             enterprisewide inventories of software licenses.
Infrastructure               The fundamental structure of a system or organization. The basic,
                             fundamental architecture of any system (electronic, mechanical, social,
                             political, etc.) determines how it functions and how flexible it is to meet
                             future requirements.
Interface                    A point at which independent systems interact.
Knowledge                    An IRS application that maintains the complete inventory of information
Incident/Problem Service     technology and non–information technology assets, computer hardware, and
Asset Management             software. It is also the reporting tool for problem management with all
                             IRS-developed applications and shares information with the Enterprise
System
                             Service Desk.
Legacy e-File System         The current IRS electronic filing system that is being replaced by the
                             Modernized e-File system.
Material Weakness            A material weakness is a deficiency, or a combination of deficiencies, in
                             internal control such that there is a reasonable possibility that a material
                             misstatement of the entity’s financial statements will not be prevented or
                             detected and corrected on a timely basis. A deficiency in internal control
                             exists when the design or operation of a control does not allow management
                             or employees, in the normal course of performing their assigned functions, to
                             prevent or detect and correct misstatements on a timely basis. Materiality
                             represents the magnitude of an omission or misstatement of an item in a
                             financial report that, when considered in light of surrounding circumstances,
                             makes it probable that the judgment of a reasonable person relying on the
                             information would have been changed or influenced by the inclusion or
                             correction of the item.
Missing                      KISAM-AM asset assignment status of lost, stolen, or temporarily missing
                             assets until a determination is made.
Modification                 Any formal change to the terms and conditions of a contract, delivery order,
                             or task order, either within or outside the scope of the original agreement.


                                                                                                      Page 44
                          Annual Assessment of the Internal Revenue Service
                                   Information Technology Program




Term                        Definition
Multifactor Authentication Achieved by combining two or three independent credentials: what the user
                           knows (password/Personal Identification Number), what the user has (security
                           token security or smart card), and what the user is (biometric verification).
National Institute of       A nonregulatory Federal agency within the Department of Commerce that is
Standards and Technology    responsible for developing standards and guidelines, including minimum
                            requirements, for providing adequate information security for all Federal
                            Government agency operations and assets.
Personally Identifiable     Information that can be used to uniquely identify, contact, or locate a single
Information                 individual or that can be used with other sources to uniquely identify a single
                            individual.
Portal                      A point of entry into a network system that includes a search engine or a
                            collection of links to other sites, usually arranged by topic.
Requirement                 A formalization of a need and the statement of a capability or condition that a
                            system, subsystem, or system component must have or meet to satisfy a
                            contract, standard, or specification.
Retired                     KISAM-AM asset assignment status of removed from active inventory and no
                            longer used. This assignment is used in conjunction with disposal codes.
Risk                        A potential event that could have an unwanted impact on the cost, schedule,
                            business, or technical performance of an information technology program,
                            project, or organization.
Security Controls           Security controls assessments are conducted in the IRS production
Assessment Test Plan        environment and consist of activities designed to ensure that the system’s
                            security safeguards are in place and functioning as intended.
Significant Deficiency      An instance of weak or missing controls that are of sufficient importance to be
                            reported to the next level of management.
Software License            The legal contract between the owner and purchaser of a piece of software
Agreement                   that establishes the purchaser’s rights. A software license agreement provides
                            details and limitations on where, how, how often, and when the software can
                            be installed and used and provides restrictions that are imposed on the
                            software. The agreement includes the licensing model used for defining and
                            measuring the use of the software. For example, a common simple license
                            model could be based on how many people can use the software and how
                            many systems the software may be installed on. Software companies also
                            make special license agreements for large business and Government entities
                            that may be different from those provided to the general consumer.


                                                                                                  Page 45
                   Annual Assessment of the Internal Revenue Service
                            Information Technology Program




Term                 Definition
Stakeholders         An individual or organization that is materially affected by the outcome of the
                     system. Examples of project stakeholders include the customer, the user
                     group, the project manager, the development team, and the testers.
Symantec Risk        Tool with capabilities that relate directly to the objectives of the NIST Secure
Automation Suite     Content Automation Protocol, a method for using specific standards to enable
                     automated and integrated vulnerability management and measurement and
                     policy compliance evaluation. Provides continuous and automated
                     information technology risk metrics.
Test Case            A test case is created to specify and document the conditions to be tested and
                     to validate that system functions meet requirements as translated into
                     documented functional design. A test case also tests outside the normal or
                     expected functions in order to find defects.
Validation           Verification that something is correct or conforms to a certain standard.
Virtualization       An approach that helps to accomplish data center consolidation. It involves
                     moving applications and data on several physical servers onto a single virtual
                     server.
Windows 2000         Provides an environment for use on both client and server computers.




                                                                                            Page 46
